No.

IN THE SUPREME COURT OF THE UNITED STATES

JOSEPH J. BUTTERCASE/ PETITIONER
V.
STATE OF NEBRASKA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEBRASKA SUPREME COURT
PROOF OF SERVICE

I, Joseph J. Buttercase, do swear or declare that on this date, November
19, 2020, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed
to each of them and with first class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calander days.
The names and addresses of those served are as follows:
DOUGLAS J. PETERSON #18146
Nebraska Attorney General
2115 State Capitol
P.O. Box 98920
Lincoln, Nebraska 68509-8920
I declare under penalty of perjury that the foregoing is true and correct.
Executed November 19, 2020
jbsepn/j. Buttercase #76999
pro se Petitioner
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161

No.

IN THE SUPREME COURT OF THE UNITED STATES

JOSEPH J. BUTTERCASE, PETITIONER
!

STATE OF NEBRASKA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEBRASKA SUPREME COURT
DECLARATION OF INMATE FILING

I, Joseph J. Buttercase, am an inmate confined in an institution (Nebraska
State Penitentiary). Today, November 19, 2020, I am depositing the MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI in this
case in the institution's internal mail system. Certified U.S. mail w/return
receipt is being prepaid by me or by the institution on my behalf.
I declare under penalty of perjury that the foregoing is true and correct
(see 28 U.S.C. ยง 1746; 18 U.S.C. ยง 1621).
Executed on November 19, 2020.
f
r

pro se Petitioner
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161

